No. ______

IN THE
SUPREME COURT OF THE UNITED STATES

PAUL ASHBY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to the
District of Columbia Court of Appeals
MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS
Petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of fees and to proceed in forma pauperis. Counsel was
appointed to represent Petitioner in the Superior Court of the District of Columbia
and in the District of Columbia Court of Appeals under the District of Columbia
Criminal Justice Act, which provides for appointment of counsel for indigent
criminal defendants. See D.C. Code ยง 11-2602. A copy of the order of the District of
Columbia Court of Appeals appointing counsel for Petitioner is appended to this
motion. No affidavit or declaration is required. See Sup. Ct. R. 39.1.

Respectfully submitted,

/s/ Samia Fam
SAMIA FAM
Counsel of Record
ALICE WANG
KC BRIDGES
PUBLIC DEFENDER SERVICE
633 Indiana Avenue, NW
Washington, DC 20004
(202) 628-1200
sfam@pdsdc.org
Counsel for Petitioner
June 28, 2021

2

